HHS/OIG-Audit--"Report on the Food and Drug Administration's Prescription Drug User Fee Account for Fiscal Year 1994, (A-17-95-00046)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audit of the Food and Drug Administration's Prescription
Drug User Fee Account for Fiscal Year 1994," (A-17-95-00046)
September 25, 1995
Complete Text of Report is available in PDF format
(814 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of the certified public accounting firm, Gardiner,
Kamya & Associates' (GK&A) audit of the Food and Drug Administration's
Prescription Drug User Fee Account (the PDUFA Account) financial statements
for the fiscal year ended September 30, 1994. In GK&A's opinion, the PDUFA
Account's statements of financial position and the related statement of operation
and changes in net position as of and for the year ended September 30, 1994
are presented fairly, in all material respects, in conformity with the basis
of accounting described in the Summary of Significant Accounting Policies accompanying
the financial statements.